August 16, 2005


Mr. David L. Gunn
President and Chief Executive Officer
National Railroad Passenger Corporation
60 Massachusetts Avenue, NE
Washington, DC 20002

Re: Review of legal services operations

Dear Mr. Gunn:

In response to requests from the U.S. House Committee on Transportation and
Infrastructure, the U.S. Department of Transportation Office of Inspector General
(OIG), in conjunction with the National Railroad Passenger Corporation (Amtrak)
OIG, will review the costs and expenditures associated with legal services
performed for Amtrak.

The review will involve the top ten recipients of outside legal fees from Amtrak
for the last three years, regardless of the subject matter of the legal services. The
initial phase of the review will focus on, among other areas, Amtrak’s processes
for the procurement of outside legal services, its disbursement of funds related to
those services, and the use of its in-house legal resources. In addition, the review
will address Amtrak’s legal costs and expenditures on the Northeast High-Speed
Rail Improvement Project.

We ask that you immediately preserve all documents and information concerning
Amtrak’s legal costs and expenditures and make available to our staff and the
Amtrak OIG all staff familiar with the payment of legal services fees and the
processes used for acquiring outside legal services and assigning in-house legal
resources. In this regard, to avoid any issues of privilege, we request that you
prepare and execute an authorization form granting us access to Amtrak related
legal documentation which, if necessary, we will submit to outside law firms.
                                                                               2




We thank you in advance for your cooperation and expeditious handling of these
document and information requests so that we may be responsive to the
Congressional requestors. If I can answer any questions or be of further
assistance, please contact me at (202) 366-1496 or Kurt Hyde, Assistant Inspector
General for Surface and Maritime Programs, at (202) 366-2017.

Sincerely,



Theodore Alves
Principal Assistant Inspector General
 for Auditing and Evaluation
